fiLED
U.3. DiSI COURT
UNITED STATES DISTRICT COUR^DDLE DISl. OF LA.
MIDDLE DISTRICT OF LOUISIANA'» ."N 3 I PH 2-* 0 j
SIGN

by CLr'UTY CL£SK

JOHN POULLARD

CIVIL ACTION

VERSUS

NO. 94-777-D

JOSEPH TURNER, ETAL
JUDGMENT
This cause came before the court, Honorable James J. Brady, District
Judge, presiding, and the jury having rendered its verdict,
IT IS ORDERED ADJUDGED AND DECREED that there be judgment
entered herein in favor of plaintiff, John Poullard, and against defendants, Joseph
Turner, Lonnie Edmonds, Michael Levatino, and Don Thames, for $750,000.00 in
compensatory damages plus interest and costs according to law.
IT IS FURTHER ORDERED ADJUDGED AND DECREED that there be
judgment entered herein in favor of plaintiff, John Poullard, for punitive damages,
against defendants, Joseph Turner in the amount of $300,000.00; Michael
Levatino in the amount of $150,000.00; and Lonnie Edmonds (cell incident) in the
amount of $300,000.00; Lonnie Edmonds (patrol car incident) in the amount of
$0.00 plus interest and costs according to law.
IT IS FURTHER ORDERED ADJUDGED AND DECREED that there be
{ju5gm!n£entered herein in favor of plaintiff, John Poullard, and against Joseph
PATE \\4ifel
595
&P
.
fet
INITIALSTdOCKCT#
NOTICE MAILED TO:
fAtt

DATE-------CA

Turner, Michael Levatino, and Lonnie Edmonds dismissing the counterclaim filed
by defendants herein with prejudice.

-

For reasons orally assigned and read into the record, and the court having
granted defendants’ rule 50 motion for judgment in favor of defendant, Michael
Logan, and against plaintiff, John Poullard;
IT IS FURTHER ORDERED ADJUDGED AND DECREED and plaintiffs
claims against Michael Logan are dismissed with prejudice.
Baton Rouge, Louisiana, January 3 I ', 2001.

IAMES JyBRADY, JUDGE
\
SUDDLE/DISTRICT OF LOUISIANA

